Department of Health and Human Services
                   OFFICE OF

              INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW

OF BAYLOR ALL SAINTS MEDICAL

 CENTER AT FORT WORTH FOR

CALENDAR YEARS 2010 AND 2011




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler

                                               Regional Inspector General


                                                      January 2014

                                                      A-06-12-00030

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                      EXECUTIVE SUMMARY


Baylor All Saints Medical Center at Fort Worth did not fully comply with Medicare
requirements for billing inpatient and outpatient services, resulting in net overpayments of
approximately $372,000 over 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Baylor All Saints Medical Center at Fort
Worth (the Hospital) complied with Medicare requirements for billing inpatient and outpatient
services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital, located in Fort Worth, Texas, is a 525-bed full-service hospital affiliate of the
Baylor Healthcare System. Medicare paid the Hospital approximately $154 million for 12,334
inpatient and 42,163 outpatient claims for services provided to beneficiaries during CYs 2010
and 2011 based on CMS’s National Claims History data.

Our audit covered $2,870,949 in Medicare payments to the Hospital for 244 claims that we
judgmentally selected as potentially at risk for billing errors. These 244 claims consisted of 182
inpatient and 62 outpatient claims with dates of service in CYs 2010 or 2011.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 121 of the 244 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 123 claims, resulting in net overpayments of $371,952 for
CYs 2010 and 2011. Specifically, 105 inpatient claims had billing errors, resulting in net
overpayments of $369,080, and 18 outpatient claims had billing errors, resulting in net
overpayments of $2,872. These errors occurred primarily because the Hospital did not have


Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)   i
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •	 refund to the Medicare contractor $371,952, consisting of $369,080 in net overpayments
       for 105 incorrectly billed inpatient claims and $2,872 in net overpayments for 18
       incorrectly billed outpatient claims, and

    •	 strengthen controls to ensure full compliance with Medicare requirements.

BAYLOR ALL SAINTS MEDICAL CENTER AT FORT WORTH COMMENTS AND
OUR RESPONSE

In written comments on our draft report, the Hospital partially agreed with our first
recommendation. Specifically, the Hospital disagreed with our finding on 34 of the 182 selected
inpatient claims incorrectly billed as inpatient, stating: “BASMC [The Hospital] provided
inpatient level of care services based on the physician order and the patients’ presenting
condition.” The Hospital added that it intends to dispute the claims at issue through the
Medicare appeals process. The Hospital concurred with our recommendation to refund the
remainder of the overpayments that we identified.

Regarding our second recommendation, the Hospital discussed steps that it had taken to
strengthen its internal controls to ensure compliance with Medicare billing requirements.

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used CMS’s Medicare contractor medical review staff and an independent medical
review contractor to determine whether the claims met medical necessity requirements. The
contractors examined all of the medical records and documentation originally submitted and
carefully considered this information to determine whether the Hospital billed the inpatient
claims according to Medicare requirements. Based on the contractors’ conclusions, we maintain
that the 34 claims should have been billed as outpatient or outpatient with observation services.




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)     ii
                                                    TABLE OF CONTENTS



INTRODUCTION .........................................................................................................................1


       Why We Did This Review .....................................................................................................1


      Objective ................................................................................................................................1


      Background ............................................................................................................................1

          The Medicare Program ..................................................................................................1

          Hospital Inpatient Prospective Payment System ...........................................................1

          Hospital Outpatient Prospective Payment System ........................................................1

          Hospital Claims at Risk for Incorrect Billing................................................................2

          Medicare Requirements for Hospital Claims and Payments .........................................2

          Baylor All Saints Medical Center at Fort Worth...........................................................3


      How We Conducted This Review ..........................................................................................3


FINDINGS .....................................................................................................................................3


      Billing Errors Associated With Inpatient Claims ...................................................................3

            Incorrectly Billed as Inpatient .......................................................................................4

            Incorrectly Billed as Separate Inpatient Stays ...............................................................4

            Incorrectly Billed Provider Number ..............................................................................4


       Billing Errors Associated With Outpatient Claims................................................................5

             Incorrectly Billed Healthcare Common Procedure Coding System Codes...................5

             Insufficiently Documented Services .............................................................................5

             Incorrectly Billed Evaluation and Management Services .............................................5


RECOMMENDATIONS ...............................................................................................................5


BAYLOR ALL SAINTS MEDICAL CENTER AT FORT WORTH COMMENTS...................6


OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................................6


APPENDIXES

        A: Audit Scope and Methodology .......................................................................................7


        B: Results of Review by Risk Area .....................................................................................9


        C: Baylor All Saints Medical Center At Fort Worth Comments .......................................10





Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)                                                 iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Baylor All Saints Medical Center at Fort Worth (the
Hospital) complied with Medicare requirements for billing inpatient and outpatient services on
selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)    1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •    inpatient short stays,

    •    inpatient same-day discharges and readmissions,

    •    inpatient claims billed with high severity level DRG codes,

    •    inpatient and outpatient manufacturer credits for replaced medical devices,


    •    outpatient claims billed with modifier -59,


    •     outpatient claims billed with evaluation and management (E&M) services, and


    •    outpatient services billed during home health episodes.


For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR §
424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) states: “In order to be processed
correctly and promptly, a bill must be completed accurately” (Pub. No. 100-04, chapter 1, §
80.3.2.2). The Manual states that providers must use HCPCS codes for most outpatient services
(chapter 23, § 20.3).




1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)                 2
Baylor All Saints Medical Center at Fort Worth

The Hospital, located in Fort Worth, Texas, is a 525-bed full-service hospital affiliate of the
Baylor Healthcare System. Medicare paid the Hospital approximately $154 million for 12,334
inpatient and 42,163 outpatient claims for services provided to beneficiaries during CYs 2010
and 2011 based on CMS’s National Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,870,949 in Medicare payments to the Hospital for 244 claims that we
judgmentally selected as potentially at risk for billing errors. These 244 claims consisted of 182
inpatient and 62 outpatient claims with dates of service in CYs 2010 or 2011. We focused our
review on the risk areas that we had identified as a result of previous OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 50 claims
to focused medical review to determine whether the services were medically necessary. This
report focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                               FINDINGS

The Hospital complied with Medicare billing requirements for 121 of the 244 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 123 claims, resulting in net overpayments of $371,952 for
CYs 2010 and 2011. Specifically, 105 inpatient claims had billing errors resulting in net
overpayments of $369,080, and 18 outpatient claims had billing errors, resulting in net
overpayments of $2,872. These errors occurred primarily because the Hospital did not have
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors. For the results of our review by risk area, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 105 of 182 selected inpatient claims, which resulted
in net overpayments of $369,080.




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)   3
Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 34 of the 182 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital did not provide a reason for these errors because it did not agree that these claims were
billed in error. As a result of these errors, the Hospital received overpayments of $249,126. 2

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay onto a single
        claim.

For 68 of the 182 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. Hospital officials stated that these errors occurred after
the responsibility to review same-day readmissions was transferred to a different individual. As
a result of these errors, the Hospital received overpayments of $135,218.

Incorrectly Billed Provider Number

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2).

For 3 of the 182 selected claims, the Hospital incorrectly billed Medicare using its acute care
provider number instead of its inpatient rehabilitation facility or psychiatric facility provider
number. Hospital officials stated that the errors occurred because the Hospital did not select the
appropriate facility code associated with the rehabilitation or psychiatric provider number when
it billed the claims, which resulted in underpayments of $15,264.




2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our draft report.


Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)                    4
BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 18 of 62 selected outpatient claims, which resulted
in net overpayments of $2,872.

Incorrectly Billed Healthcare Common Procedure Coding System Codes

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)). The Manual states: “In order to
be processed correctly and promptly, a bill must be completed accurately” (chapter 1, §
80.3.2.2).

For 3 of the 62 selected claims, the Hospital submitted the claims to Medicare with incorrect
HCPCS codes. Hospital officials attributed this to human error. As a result of these errors, the
Hospital received net overpayments of $1,693.

Insufficiently Documented Services

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)).

For 11 of the 62 selected claims, the Hospital incorrectly billed Medicare for services that were
not supported in the medical records. These errors occurred primarily because of human error.
As a result of these errors, the Hospital received overpayments of $945.

Incorrectly Billed Evaluation and Management Services

The Manual states that a Medicare contractor pays for an E&M service that is significant,
separately identifiable, and above and beyond the usual preoperative and postoperative work of
the procedure (chapter 12, § 30.6.6(B)).

For 4 of the 62 selected claims, the Hospital incorrectly billed Medicare for E&M services that
were not significant, separately identifiable, and above and beyond the usual preoperative and
postoperative work of the procedure. Hospital officials attributed this to human error. As a
result of these errors, the Hospital received overpayments of $234.

                                       RECOMMENDATIONS

We recommend that the Hospital:

    •	 refund to the Medicare contractor $371,952, consisting of $369,080 in net overpayments
       for 105 incorrectly billed inpatient claims and $2,872 in net overpayments for 18
       incorrectly billed outpatient claims, and

    •	 strengthen controls to ensure full compliance with Medicare requirements.




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)   5
BAYLOR ALL SAINTS MEDICAL CENTER AT FORT WORTH COMMENTS

In written comments on our draft report, the Hospital partially agreed with our first
recommendation. Specifically, the Hospital disagreed with our finding on 34 of the 182 selected
inpatient claims incorrectly billed as inpatient, stating: “BASMC [The Hospital] provided
inpatient level of care services based on the physician order and the patients’ presenting
condition.” The Hospital added that it intends to dispute the claims at issue through the
Medicare appeals process. The Hospital concurred with our recommendation to refund the
remainder of the overpayments that we identified.

Regarding our second recommendation, the Hospital discussed steps that it had taken to
strengthen its internal controls to ensure compliance with Medicare billing requirements.

The Hospital’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used CMS’s Medicare contractor medical review staff and an independent medical
review contractor to determine whether the claims met medical necessity requirements. The
contractors examined all of the medical records and documentation originally submitted and
carefully considered this information to determine whether the Hospital billed the inpatient
claims according to Medicare requirements. Based on the contractors’ conclusions, we maintain
that the 34 claims should have been billed as outpatient or outpatient with observation services.




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)   6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our audit covered $2,870,949 in Medicare payments to the Hospital for 244 claims that we
judgmentally selected as potentially at risk for billing errors. These 244 claims consisted of 182
inpatient and 62 outpatient claims with dates of service in CYs 2010 or 2011.

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected 50 claims to focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from June 2012 through September 2013.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed applicable Federal laws, regulations, and guidance;

    •	 extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2010 and 2011;

    •	 obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2010 and 2011;

    •	 used computer matching, data mining, and data analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

    •	 judgmentally selected 244 claims (182 inpatient and 62 outpatient) for detailed review;

    •	 reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

    •	 reviewed the medical record documentation provided by the Hospital to support the
       selected claims;


Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)     7
    •	 requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

    •	 used CMS’s Medicare contractor medical review staff and an independent contractor to
       determine whether 50 selected claims met medical necessity requirements;

    •	 discussed the incorrectly billed claims with Hospital personnel to determine the

       underlying causes of noncompliance with Medicare requirements;


    •	 calculated the correct payments for those claims requiring adjustments; and

    •	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)    8
                          APPENDIX B: RESULTS OF REVIEW BY RISK AREA





                                                                    Value of           Claims With
                                                Selected            Selected          Underpayments            Value of Net
             Risk Area                          Claims              Claims            /Overpayments           Overpayments

Inpatient

Short Stays                                         76               $758,754                  34                 $249,126
Same-Day Discharges and
Readmissions                                        76              1,311,678                  71                  119,954
Claims Billed With High Severity
Level Diagnosis-Related Group
Codes                                               26                 464,850                  0                            0
Manufacturer Credits for Replaced
Medical Devices                                      4                 104,020                  0                            0

 Inpatient Totals                                  182             $2,639,302                 105                 $369,080



Outpatient

Claims Billed With Modifier -59                     14                $16,822                   5                   $2,217
Claims Billed With Evaluation and
Management Services                                 24                  14,700                 13                          654
Manufacturer Credits for Replaced
Medical Devices                                     12                186,778                   0                            0
Services Billed During Home Health
Episodes                                            12                  13,347                  0                            0

 Outpatient Totals                                  62               $231,647                  18                   $2,872



 Inpatient and Outpatient Totals                   244             $2,870,949                 123                 $371,952


      Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
      outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
      billing errors we found at the Hospital. Because we have organized the information differently, the information in
      the individual risk areas in this table does not match precisely with this report’s findings.




      Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)                   9
    APPENDIX C: BAYLOR ALL SAINTS MEDICAL CENTER AT FORT WORTH

                             COMMENTS





               ~BAYLOR
                ._ All Saints Medical Center
                                                                                           1400 Eighth Av<nu<
                                                                                           Port Worth, Texas 76104
                                                                                           (817) 926·2544
                                                                                           www BaylorHeahh com
                   at Fort Worth



               January 4, 2014


               Patricia Wheeler
               Regional Inspector General for Audit Services
               Office of Audit Services, Region V1
               1100 Commerce Street, Room 632
               Dallas, Texas 75242


               Report Number: A-06-12-00030, Medicare Compliance Review of Baylor All Saints
               Medical Center at Fort Worth for Calendar Years 2010 and 2011


               Dear Ms. Wheeler:

               Baylor All Saints Medical Center at Fort Worth ("BASMC") is in receipt of the
               November 21,2013 draft report provided by the U.S. Department of Health and Human
               Services, Office of the Inspector General ("OIG") entitled Medicare Compliance Review
               of Baylor All Saints Medical Center at Fort Worth for Calendar Years 2010 and 2011.
               BASMC appreciates the opportunity to review the report and provide comments to the
               OIG regarding the report findings. BASMC is committed to complying with all
               regulations and standards governing Federal health care programs, improving internal
               controls, providing training and education, and proactively auditing and monitoring to
               minimize the risk of errors.

               Responses to the findings referenced in the OIG drafl report are detailed below.
               Corrective actions have been developed to address specific findings, including
               strengthening internal controls, providing additional education, work flow process
               improvement and focused auditing and monitoring.

               SUMMARY OF OIG FINDINGS AND RECOMMENDATIONS

               Findings

               The Hospital complied with Medicare billing requirements for 121 of the 244 inpatient
               and outpatient claims reviewed. However, the Hospital did not fully comply with
               Medicare billing requirements for the remaining 123 claims, resulting in net
               overpayments of $37 1,952 for CYs 2010 and 2011. Specifically, lOS inpatient claims
               had billing errors resulting in net overpayments of $369,080, and 18 outpatient claims
               had billing errors, resulting in net overpayments of $2,872. These errors occurred




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)                         10
               primarily because the Hospital did not have adequate controls to prevent the incorrect
               billing of Medicare claims within the selected risk areas that contained errors.

               Recommendations

               We recommend that the Hospital:

                         refund to the Medicare contractor $371 ,952, cons1stmg of $369,080 in net
                         overpayments for 105 incorrectly billed inpatient claims and $2,872 in net
                         overpayments for 18 incolTectly billed outpatient claims, and

                    •    strengthen controls to ensure full compliance with Medicare requirements.

               REPORT FINDINGS AND COMMENTS

               Incorrectly Billed as Inpatient

               For 34 of the 182 selected claims, the Hospital incorrectly billed Medicare Part A for
               beneficiary stays that should have been billed as outpatient or outpatient with observation
               services. The Hospital did not provide a reason for these errors because it did not agree
               that these claims were billed in error. As a result of these errors, the Hospital received
               overpayments of $249,126.

               R esponse:

               BASMC respectfully disagrees with the OIG rep01t finding and medical review for the 34
               claims determined not to meet medical necessity for a Medicare Part A inpatient stay.
               Based on the guidance provided in the Medicare Benefit Policy Manual, chapter I,
               section l 0, an inpatient is defined as;

                        "An inpatient is a person who has been admitted to a hospital for bed occupancy
                        for purposes of receiving inpatient hospital services. Generally, a patient is
                        considered an inpatient ifformally admitted as inpatient with the expectation that
                        he or she will remain at least overnight and occupy a bed even though it later
                        develops that the patient can be discharged or transferred to another hospital
                        and not actually use a hospital bed overnight.

                        The physician or other practitioner responsible for a patient's care at the hospital
                        is also responsible for deciding whether the patient should be admitted as an
                        inpatient. Physicians should use a 24-hour period as a benchmark. i.e., they
                        should order admission for patients who are expected to need hospital care for 24
                        hours or more, and treat other patients on an outpatient basis. However, the
                        decision to admit a patient is a complex medical judgment which can be made
                        only after the physician has considered a number of factors, including the
                        patient's medical hist01y and current medical needs, the types of facilities


                                                             2




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)                   11
                      available to inpatients and to outpatients, the hospital's by-laws and admissions
                      policies, and the relative appropriateness oftreatment in each setting."

               One- day stays (short stays) are reviewed by the BASMC Care Coordination staff to
               determine the appropriateness of the stay based on the physician order and InterQual
               criteria. InterQual criteria are used as a basis to support the medical necessity of the
               inpatient status. Upon review, if it is determined that the patient status does not meet
               inpatient criteria, the Care Coordination staff will contact the admitting physician and the
               Medical Director of Care Coordination (MDCC) if appropriate, to verify the medical
               necessity of the admission status. In addition, BASMC provides ongoing InterQual
               training for the Care Coordination staff on an annual basis. Interrater Reliability ("IRR")
               testing is mandatory and is used to measure staff proficiency regarding the application of
               JnterQual criteria.

               BASMC provided inpatient level of care services based on the physician order and the
               patients' presenting condition. The 34 claims will be appealed through the Medicare
               appeals process.

               Incorrectly Billed as Separate Inpatient Stays

               For 68 of the 182 selected claims, the Hospital billed Medicare separately for related
               discharges and readmissions within the same day. Hospital officials stated that these
               errors occurred after the responsibility to review same-day readmissions was transferred
               to a different individual. As a result of these errors, the Hospital received overpayments
               of$135,218.

               R esponse:

               BASMC concurs with the report finding. BASMC and Baylor Medical Center South
               West at Fort Worth ("BMCSW") were separate sites with physically different locations,
               licensed under the same provider number; and therefore considered one provider for
               claim submission purposes. The error occurred when patients were transferred from
               BMCSW to BASMC. The BMCSW location was closed on March 30, 2012; therefore,
               readmissions that occurred for this reason will no longer be a concern. The overpayments
               have been refunded through the claim adjustment process in the Medicare claim
               processing system.

               Incorrectly Billed Provider Number

              For 3 of the 182 selected claims, the Hospital incorrectly billed Medicare using its acute
              care provider number instead of its inpatient rehabilitation facility or psychiatric facility
              provider number. Hospital officials stated that the errors occurred because the Hospital
              did not select the appropriate facility code associated with the rehabilitation or psychiatric
              provider number when it billed the claims, which resulted in underpayments of$15,264.




                                                            3




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)                   12
               Response:

               BASMC concurs with the report finding. For two (2) of the claims in this category, the
               patient was discharged from an inpatient rehabilitation provider to an acute care provider;
               however, the claims were submitted with the acute care provider number. The remaining
               error in this category resulted from a discharge from an inpatient psychiatric provider to
               an acute care provider; however, both claims were submitted with the acute care provider
               number. The eJTors resulted in acute care same day readmissions, when they should have
               been billed as an inpatient psychiatric or rehabilitation stay. During the registration
               process, the appropriate medical service code that was associated with the psychiatric or
               •·ehabilita tion provider number was not selected, which resulted in the acute care provider
               number being associated with the claim.

               Training and education was provided to the registration starT regarding the selection of
               the appropriate medical service code associated with the provider type and number. A
               compliance review was completed for readmissions that occurred between July I, 201 1
               and June 30, 2012, to evaluate Medicare claims for patients that were readmitted to the
               same facility on the same day they were discharged, to determine if the claims were
               billed appropriately and complied with Medicare guidelines. Ongoing monitoring is
               performed with respect to readmissions to validate that the readmission is compliant with
               Medicare regulations and should be submitted as a separate encounter and not as a
               combined claim.

               The BASMC inpatient psychiatric unit was closed on October 4, 20 I 0; therefore,
               readmissions that had previously occurred when patients were discharged from the
               inpatient psychiatric provider to the acute care provider will no longer be a concern. The
               claims were adjusted in the Medicare claim processing system.

               Incon cctly Billed Hcalthcarc Common Procedure Coding System Codes

               For 3 of the 62 selected claims, the Hospital submitted the claims to Medicare with
               incorrect HCPCS codes. Hospital officials attributed this to human error. As a result of
               these errors, the Hospital received net overpayments of $ 1,693.

               Response:

               BASMC concurs with the report finding. The errors in this category are related to the
               application of modifier 59, indicating a separate or distinct procedure performed on the
               same day. The modifier is used to identify services or procedures that arc not normally
               performed together, but may be appropriate under certain circumstances. BASMC has
               provided additional coding education regarding the appropriate usc of HCPCS codes and
               performs ongoing coding audits to validate coding quality and identify coding training
               opportunities. The overpayments have been refunded through the claim adjustment
               process in the Medicare claim processing system.




                                                            4




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)                  13
               Insufficiently Documented Services

               For 11 of the 62 selected claims, the Hospital incorrectly billed Medicare for services that
               were not supported in the medical records. These errors occurred primarily because of
               human error. As a result of these errors, the Hospital received overpayments of$945.

               R esp on se:

               BASMC concurs with the rcpott finding. The errors occurred due to insufficient
               documentation in the medical record to support the application of modifier 25 for
               Evaluation and Management ("E&M) services and modifier 59 indicating a distinct and
               separate procedure performed on the same day. The modifier 59 is appended by certified
               coders, who adhere to standards and guidelines defined by the Current Procedural
               Terminology ("CPT") code set. Additional coding education regarding the documentation
               requirements to support the application of modifier 59 has been provided to the coding
               staff. In addition, training and education has been provided to the charge entry staff on
               the appropriate application of modifier 25. The overpayments have been refunded
               through the claim adjustment process in the Medicare claim processing system.

               Incorrectly Billed Evaluation and Management Services

               For 4 of the 62 selected claims, the Hospital incorrectly billed Medicare for E&M
               services that were not significant, separately identifiable, and above and beyond the usual
               preoperative and postoperative work of the procedure. Hospital officials attributed this to
               human error. As a result of these errors, the Hospital received overpayments of $234.

               Response:

               BASMC concurs with the report finding. The claim errors occurred due to a
               misunderstanding by the clinical depattment on the appropriate use of modifier 25 to
               indicate a separate and distinct procedure performed in addition to an Evaluation and
               Management ("E&M") service. Additional training has been provided to charge entry
               staff regarding the appropriate use of modifier 25 for E&M services. The overpayment
               has been refunded through a claim adjustment in the Medicare claim processing system.

               BASMC remains committed to ongoing compliance with Medicare billing regulations
               through the continued training and education, ongoing auditing and monitoring, and
               enhancement of internal controls.

               Nothing herein should be deemed an admission by BASMC of any regulatory violation.
               BASMC reserves the right to appeal any claims denied by the Medicare Administrative
               Contractor.

               We appreciate the professionalism of the OIG audit staff though the review process.
               Please contact me directly if you have additional questions regarding this response.



                                                           5




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)                  14
               Sincerely,



               Robert Michalski, CHC
               Chief Compliance Officer
               Baylor Scott & White Health


               cc: David Klein, M.D.
                   Lucy Catala
                   Lygia Dunswoth




                                                     6




Medicare Compliance Review of Baylor All Saints Medical Center at Fort Worth (A-06-12-00030)   15
